No.
In the

Supreme Court of the United States

NEXUS SERVICES, INC., et al.,
Petitioners,
v.
DONALD LEE MORAN, et al.,
Respondents.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Fourth Circuit

PETITION FOR A WRIT OF CERTIORARI

Joseph R. Pope
Counsel of Record
Williams Mullen
200 South 10th Street, Suite 1600
P.O. Box 1320
Richmond, Virginia 23219
(804) 420-6000
jpope@williamsmullen.com
Counsel for Petitioners
289576

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
1. 42 U.S.C. § 1988(b) is a federal fee shifting statute
that permits a defendant to obtain attorneys’ fees
where, inter alia, the defendant is a prevailing party,
Christiansburg Garment Co. v. E.E.O.C., 434 U.S. 412, 422
(1978). To qualify as a prevailing party, a party must obtain
a court ruling that marks a “judicially sanctioned change
in the legal relationship of the parties.” Buckhannon Bd.
& Care Home, 500 Inc. v. W. Va. Dep’t of Health & Human
Res., 532 U.S. 598, 601 (2001). The Tenth. Eleventh,
and Federal Circuits have concluded that a voluntary
dismissal under Federal Rule of Civil Procedure 41(a)
(1) does not constitute a “judicially sanctioned change in
the legal relationship of the parties.” The Fourth Circuit
here affirmed a district court ruling that held a voluntary
dismissal under Rule 41(a)(1) granted the defendants
prevailing party status and awarded fees and costs. The
question presented is this:
Can a party qualify as a “prevailing party”
under a federal fee shifting statute when an
adverse party voluntarily dismisses its claims
under Rule 41(a)(1) even though the dismissal
is self-executing and entered without a court
order?

ii
LIST OF PARTIES
The Appellants in the court below were Nexus
Services, Inc., Michael Donovan, Richard Moore, Amy
C.M. Burns, Mary Donne Peters, Michael J. Gorby, and
Andre Aris Hakes. The Appellees in the court below were
Donald Lee Moran in his Individual Capacity and in his
Official Capacity as a Deputy Sheriff of Augusta County,
Virginia, Donald L. Smith in his Individual Capacity and
in his Official Capacity as Sheriff of Augusta County,
Virginia, and Michael Roane in his Individual Capacity
and in his Official Capacity as a Deputy Sheriff of Augusta
County, Virginia.

iii
CORPORATE DISCLOSURE STATEMENT
Petitioner Nexus Ser vices, Inc. has no parent
corporation, and no publicly held company owns 10% or
more of its stock.

iv
RELATED CASES
Nexus Services, Inc., et al. v. Donald Lee Moran,, et al.,
CL16-001034-00 (Augusta County Circuit Court) (case
nonsuited on June 16, 2016).
Nexus Services, Inc., et al. v. Donald Lee Moran, et al.,
No. 5:16-cv-00035 (W.D. Va.) (final judgment entered April
20, 2018).
Nexus Services, Inc., et al. v. Donald Lee Moran,, et al.,
No. 18-1445 (4th Cir.) (opinion and judgment entered on
February 7, 2019).

v
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
LIST OF PARTIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
CORPORATE DISCLOSURE STATEMENT . . . . . .  iii
RELATED CASES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . vii
OPINION BELOW  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF JURISDICTION  . . . . . . . . . . . . . . . 1
RELEVANT STATUTORY PROVISIONS . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 2
REASONS FOR GRANTING THE PETITIONER . . 6
A. The Decision Below Conflicts With Precedent
From This Court  . . . . . . . . . . . . . . . . . . . . . . . . . . 6
B. The Decision Below Is Contrar y To
Decisions Of Other Courts Of Appeals And
Other Lower Courts  . . . . . . . . . . . . . . . . . . . . . . . 8
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

vi
TABLE OF APPENDICES
Page
A P P E N DI X A — O P I N ION O F T H E
UNITED STATES COURT OF APPEALS
F OR T H E F OU RT H CI RCU I T,
FILED FEBRUARY 7, 2019 . . . . . . . . . . . . . . . . . . . 1a
A PPEN DI X B — M EMOR A N DU M
OPINION OF THE UNITED STATES
DISTRICT COURT FOR THE
W ESTERN DISTRICT OF V IRGINI A ,
H A RRISON BU RG DI V ISION, FILED
MARCH 23, 2018 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4a
APPENDIX C — DENIAL OF REHEARING
OF THE UNITED STATES COURT OF
APPEALS FOR THE FOURTH CIRCUIT,
FILED MARCH 12, 2019 . . . . . . . . . . . . . . . . . . . . . 49a

vii
TABLE OF CITED AUTHORITIES
Page
CASES
Anago Franchising, Inc. v. Shaz, LLC,
677 F.3d 1272 (11th Cir. 2012)  . . . . . . . . . . . . . . . . . . . 8
Buckhannon Bd. & Care Home, 500 Inc. v.
W. Va. Dep’t of Health & Human Res.,
532 U.S. 598 (2001) . . . . . . . . . . . . . . . . . . . . . . . passim
CRST Van Expedited, Inc. v. E.E.O.C.,
136 S. Ct. 1642 (2016)  . . . . . . . . . . . . . . . . . . . . . . . . . . 8
First Time Videos, LLC v. Oppold,
559 F. App’x 931 (11th Cir. 2014) . . . . . . . . . . . . . . . . . 9
Harris v. Captiva Condominiums, LLC,
2008 WL 4911237 (M.D. Fla. 2008) . . . . . . . . . . . . . .10
Hopkins Manufacturing Corporation v.
Cequent Performance Products, Inc.,
223 F. Supp. 3d 1194 (D. Kan. 2016) . . . . . . . . . . . . . 10
Lorillard Tobacco Co. v. Engida,
611 F.3d 1209 (10th Cir. 2010)  . . . . . . . . . . . . . . . . . 8, 9
Malibu Media, LLC v. Baiazid,
152 F. Supp. 3d 496 (E.D. Va. 2015)  . . . . . . . . . . . . . 10
Marino v. Pioneer Edsel Sales, Inc.,
349 F.3d 746 (4th Cir. 2003) . . . . . . . . . . . . . . . . . . . . . 8

viii
Cited Authorities
Page
Matthews v. Gaither,
902 F.2d 877 (11th Cir. 1990) . . . . . . . . . . . . . . . . . . . . 9
O.F. Mossberg & Sons, Inc. v.
Timney Triggers, LLC,
2018 WL 4398249 (D. Conn. 2018)  . . . . . . . . . . . . . . 10
RFR Industries, Inc. v. Century Steps, Inc.,
477 F.3d 1348 (Fed. Cir. 2007) . . . . . . . . . . . . . . . . . . . 9
S–1 and S–2 v. State Bd. of Ed. of N. C.,
21 F.3d 49 (4th Cir. 1994) . . . . . . . . . . . . . . . . . . . . . . . 7
Smalley v. Account Services Collections, Inc.,
2017 WL 1092678 (W.D. Pa. Mar. 23, 2017) . . . . . . . 10
Texas State Teachers Assn. v.
Garland Ind. School Dist.,
489 U.S. 782 (1989) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
STATUTES AND OTHER AUTHORITIES
15 U.S.C. § 1117(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
17 U.S.C. § 505  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1927  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

ix
Cited Authorities
Page
35 U.S.C. § 285 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
42 U.S.C. § 1988  . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 7, 8, 11
42 U.S.C. § 1988(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 2
Federal Rule of Civil Procedure 41(a)(1) . . . . . . 3, 8, 9, 10
Federal Rule of Civil Procedure 41(a)(1)(A)(ii)  . . . . . . 10
Federal Rule of Civil Procedure 41(a)(1)(B) . . . . . . . . 3, 9
Black’s Law Dictionary (7th ed. 1999) . . . . . . . . . . . . . . . 7

1
OPINION BELOW
The Fourth Circuit’s opinion (App. 1a) is not published
in the Federal Reporter but is available at No. 18-1445,
750 F. App’x 241 (2019).
STATEMENT OF JURISDICTION
The Fourth Circuit entered judgment on March 12,
2019. (App. 1a.) This Court’s jurisdiction rests on 28 U.S.C.
§ 1254(1).
RELEVANT STATUTORY PROVISIONS
42 U.S.C. § 1988(b) and Federal Rule of Civil
Procedure 41(a)(1) provide:
§ 1988. Proceedings in vindication of civil rights
(b) Attorney’s fees
In any action or proceeding to enforce a
provision of sections 1981, 1981a, 1982, 1983,
1985, and 1986 of this title, title IX of Public
Law 92-318, the Religious Freedom Restoration
Act of 1993, the Religious Land Use and
Institutionalized Persons Act of 2000, title VI
of the Civil Rights Act of 1964, or section 12361
of Title 34, the court, in its discretion, may allow
the prevailing party, other than the United
States, a reasonable attorney’s fee as part of the
costs, except that in any action brought against
a judicial officer for an act or omission taken
in such officer’s judicial capacity such officer

2
shall not be held liable for any costs, including
attorney’s fees, unless such action was clearly
in excess of such officer’s jurisdiction.
Rule 41. Dismissal of Actions
(a) Voluntary Dismissal.
(1)

By the Plaintiff.

(A) Without a Court Order. Subject to Rules
23(e), 23.1(c), 23.2, and 66 and any applicable
federal statute, the plaintiff may dismiss an
action without a court order by filing:
(i) a notice of dismissal before the
opposing party ser ves either an
answer or a motion for summary
judgment; or
(ii) a stipulation of dismissal signed by
all parties who have appeared.
(B) Effect. Unless the notice or stipulation states
otherwise, the dismissal is without prejudice.
But if the plaintiff previously dismissed any
federal- or state-court action based on or
including the same claim, a notice of dismissal
operates as an adjudication on the merits.
STATEMENT OF THE CASE
42 U.S.C. § 1988(b) provides that a court “may allow
the prevailing party . . . a reasonable attorney’s fee as part

3
of the costs” of the action. In this case, the district court
determined that the defendants qualified as prevailing
parties because the plaintiffs voluntarily dismissed their
civil rights action under Federal Rule of Civil Procedure
41(a)(1). The district court failed to appreciate that
a voluntary dismissal under Rule 41(a)(1) is obtained
without an order from the court and becomes effective
once filed by the plaintiff. Thus, there is no “judicially
sanctioned change in the legal relationship of the parties.”
Buckhannon Bd. & Care Home, 532 U.S. at 601.
The district court stretched to find a justification for
its ruling by concluding there was a “judicially sanctioned”
change in the parties’ legal relationship because the
plaintiffs had dismissed their claim once earlier in state
court. The court found that since the plaintiffs had earlier
dismissed their case, and a second dismissal under Rule
41(a)(1)(B) has preclusive effect, the dismissal satisfied
the “judicially sanctioned” criteria of Buckhannon. Still,
the district court did not address that while the second
dismissal had the effect of a dismissal on the merits for
res judicata purposes, the dismissal’s effect was obtained
without involvement by the court. The Fourth Circuit
summarily affirmed this erroneous ruling.
The question presented by this petition has divided
the courts of appeal and the ruling below is in conflict
with this Court’s precedent. Permitting a district court to
confer prevailing party status and award fees following a
voluntary dismissal under Rule 41(a)(1) is inconsistent with
established law and will lead to palpable and unacceptable
injustice. Review by this Court is sorely needed.

4
1. Michael Donovan (“Donovan”) and Richard Moore
(“Moore”) serve as President/CEO and Executive Vice
President, respectively, of Petitioner Nexus Services,
Inc. (“Nexus”) (collectively, the “Nexus Plaintiffs”). In
2015, to address jail overcrowding, Donovan and Moore
established a charitable bonding service available for
individuals awaiting criminal trial in Harrisonburg,
Virginia, and Augusta and Rockingham Counties (the
“Bonding Program” or “Program”)). Under the Program,
individuals who qualify for bond but are unable to afford
the cost of posting that bond can qualify for free bonding
through Nexus, and in return need only wear a GPS
monitor.
2. Soon after Nexus began the Program, a firestorm
of controversy erupted in the local bail bonding and law
enforcement communities. The primary bondsman in
Augusta County, David L. Bourne (“Bourne”), became
concerned that the Program would adversely impact
his business. Bourne soon contacted Donald Moran, a
member of the Augusta County Sheriff’s Department
with whom he had a close personal relationship, to discuss
the Program. Bourne speculated to Moran that Nexus
was funding the Program as part of a money laundering
scheme. Bourne described Donovan and Moore as “con
men” who were “wicked smart.”
3. Moran soon began investigating the Nexus
Plaintiffs. On one occasion, Moran approached a Nexus
employee, falsely introduced himself as an FBI agent, and
said he was investigating Nexus. After learning of Moran’s
conduct, Donovan and Moore reached out to Sheriff Donald
L. Smith (“Smith”) directly to lodge a complaint. Donovan
and Moore also invited Smith to visit Nexus and learn

5
more about the company. Smith accepted the invitation.
A few weeks later, Smith and Captain William D. Spence
(“Spence”) visited Nexus’s offices. At one point during
the meeting, after an African-American Nexus employee
made a presentation about South American culture and
coconut harvesting, Spence asked the employee if he could
climb coconut trees. Spence also began flapping his arms
and making “monkey sounds.”
4. The harassment of the Nexus Plaintiffs by Augusta
County local government officials began to escalate
after this incident. The County’s Commissioner of the
Revenue, Jean Shrewsbury (“Shrewsbury”), began a tax
investigation of the Company. And officers in marked
cars began to frequently drive past Donovan and Moore’s
home and Nexus’s offices. On one occasion, while Donovan
and Moore were driving on an interstate several Augusta
County officers in marked cars surrounded and boxed in
Donovan and Moore to intimidate them.
5. On May 18, 2016, Donovan, Moore, and Nexus filed
a civil rights action in Virginia state court. After the filing
of the state court complaint, there were several additional
incidents with local law enforcement, including two officers
in marked cars speeding down the street to Donovan and
Moore’s home only to quickly reduce speed and drive
by the home very slowly. Following these incidents, the
Plaintiffs nonsuited (voluntarily dismissed) their state
court case and on June 6, 2016, refiled their case in the
Western District of Virginia. To update their Complaint
to include new factual material, and in response to motions
to dismiss filed by the Defendants, the Nexus Plaintiffs
sought and received leave to amend their Complaint twice.
Following a hearing on the Defendants’ motions to dismiss

6
the Second Amended Complaint, the Nexus Plaintiffs
moved for leave to file a Third Amended Complaint.
Following a hearing on Plaintiffs’ third motion to amend,
the Plaintiffs filed a Notice of Voluntary Dismissal.
6. The Defendants on April 17, 2017, filed a motion for
attorneys’ fees and sanctions against the Nexus Plaintiffs
and their counsel. In its memorandum opinion, the
district court granted the motion, finding that sanctions
were appropriate under § 1988, 28 U.S.C. § 1927, and the
court’s inherent powers. The Nexus Plaintiffs appealed
to the Fourth Circuit and the Fourth Circuit summarily
affirmed. The Fourth Circuit also denied the Nexus
Plaintiffs’ Petition for Rehearing and Rehearing En
Banc.
7. This petition followed.
REASONS FOR GRANTING THE PETITIONER
The decision below is contrary to precedent of this
Court and this case presents the Court an opportunity to
correct a serious error of law. The decision below is also
contrary to the rulings of other federal circuit courts and
lower courts. This case gives the Court an opportunity
to resolve disagreements among the federal courts on an
important and recurring question of federal law.
A. The Decision Below Conflicts With Precedent From
This Court.
1. Under 42 U.S.C. § 1988, a defendant is entitled
to attorneys’ fees only where (1) the defendant is a
prevailing party, and (2) a plaintiff’s case was “frivolous,

7
unreasonable, or without foundation,” or the “plaintiff
continued to litigate after it clearly became so.”
Christiansburg Garment Co., 434 U.S. at 422.
This Court has defined the phrase “prevailing
party” in Buckhannon Bd. & Care Home, 500 Inc. v. W.
Va. Dep’t of Health & Human Res., 532 U.S. 598, 601
(2001). The Court observed that Black’s Law Dictionary
defined a “prevailing party” as “‘[a] party in whose favor
a judgment is rendered.’” Id. at 603 (quoting Black’s Law
Dictionary 1145 (7th ed. 1999) (emphasis added)). The
Court then explained that—in light of this definition—a
“judicially sanctioned change in the legal relationship
of the parties”—such as a judgment on the merits or
a consent decree—is necessary for “prevailing party”
status. See id. at 605. Even a party’s “voluntary change
in conduct, although perhaps accomplishing what the
[opposing party] sought to achieve . . . lacks the necessary
judicial imprimatur” to afford “prevailing party” status
on the benefited party. Id. (emphasis in original).
Buckhannon affirmed a Fourth Circuit case holding
that, “‘A person may not be a ‘prevailing party’. . . except
by virtue of having obtained an enforceable judgment,
consent decree, or settlement giving some of the legal
relief sought.’” Id. at 602 (quoting S–1 and S–2 v. State
Bd. of Ed. of N. C., 21 F.3d 49, 51 (4th Cir. 1994) (en banc)).
In S-1, the Fourth Circuit found that plaintiffs could not
recover attorneys’ fees under 42 U.S.C. § 1988 where the
case was dismissed on appeal for prudential reasons of
mootness. The court expressly rejected the claim that
the plaintiffs prevailed because the result operated as
a catalyst for post-litigation changes in conduct as the
dismissal vacated the district court judgment and ended
the litigation. Id. at 51.

8
2. In CRST Van Expedited, Inc. v. E.E.O.C., the
Court reiterated that “[t]he ‘touchstone of the prevailing
party inquiry must be the material alteration of the
legal relationship of the parties.’” 136 S. Ct. 1642, 1646
(2016) (quoting Texas State Teachers Assn. v. Garland
Ind. School Dist., 489 U.S. 782, 792–93 (1989)). And this
change in the parties’ legal relationship must be “marked
by ‘judicial imprimatur.’” Van Expedited, 136 S. Ct. 1642
(2016) (quoting Buckhannon, 532 U.S. at 605.).
In this case, the Nexus Plaintiffs voluntarily dismissed
their case under Federal Rule of Civil Procedure
41(a)(1); thus, there was no judgment or “judicially
sanctioned change in the legal relationship of the parties.”
Buckhannon, 532 U.S. at 605. By its plain language,
a voluntary dismissal of a case under Rule 41(a)(1) is
“[w]ithout a [c]ourt [o]rder.” See Marino v. Pioneer Edsel
Sales, Inc., 349 F.3d 746, 752 n.1 (4th Cir. 2003). Indeed,
the filing of a notice of voluntary dismissal is automatic
and “self-executing.” Anago Franchising, Inc. v. Shaz,
LLC, 677 F.3d 1272, 1278 (11th Cir. 2012).
B. The Decision Below Is Contrary To Decisions Of
Other Courts Of Appeals And Other Lower Courts.
1. The ruling below that a voluntary dismissal under
Rule 41(a)(1) can bestow prevailing party status on a
defendant is inconsistent with decisions from other circuit
courts. In Lorillard Tobacco Co. v. Engida, the Tenth
Circuit reversed a district court order granting attorneys’
fees to a defendant under the fee shifting provision of
the Lanham Act—which, like § 1988, provides that a
“prevailing party” may obtain attorneys’’ fees. 611 F.3d
1209, 1212 (10th Cir. 2010) (citing 15 U.S.C. § 1117(a)). The

9
Tenth Circuit recognized that a voluntary dismissal under
Rule 41(a)(1) is “without a court order” and so “no judicial
sanction is required.” Id. at 1215.
The Federal Circuit in a patent case concluded that
a voluntary dismissal under Rule 41(a)(1) did not bestow
“prevailing party” status to a defendant as required
under 35 U.S.C. § 285 because a voluntary dismissal is not
“judicially sanctioned because it does not require a court
order, nor does the court have the power or discretion
to place any conditions on it.” RFR Industries, Inc. v.
Century Steps, Inc., 477 F.3d 1348, 1353 (Fed. Cir. 2007).
The Eleventh Circuit, albeit in an unpublished
decision, has echoed the reasoning of the Tenth and
Federal Circuits. In First Time Videos, LLC v. Oppold,
the court reasoned that the defendant was not a prevailing
party under 17 U.S.C. § 505 because a voluntary dismissal
under Rule 41(a)(1) is without a court order. 559 F. App’x
931, 932 (11th Cir. 2014). Relying on its own precedent, the
court also noted that a dismissal under Rule 41(a)(1) “‘is
effective immediately upon the filing of a written notice
of dismissal, and no subsequent court order is required.’”
Id. (quoting Matthews v. Gaither, 902 F.2d 877, 880 (11th
Cir. 1990)).
The Eleventh Circuit also had little difficulty dealing
with the argument that because a second voluntary
dismissal operates as an adjudication on the merits
under 41(a)(1)(B), a defendant can in that circumstance
be a prevailing party. The court noted that even a second
dismissal is automatic and self-executing, and the district
court plays no role in the dismissal. Id.

10
2. The decision below is also contrary to the greater
weight of district court opinions on the issue. In Malibu
Media, LLC v. Baiazid, the court concluded that a
dismissal with prejudice by joint stipulation under Rule
41(a)(1)(A)(ii) did not suffice to confer prevailing party
status. 152 F. Supp. 3d 496, 501 (E.D. Va. 2015). This was
so because Buckhannon requires a “‘judicially sanctioned
change in the legal relationship of the parties’” to confer
prevailing party status and a dismissal under Rule 41(a)
(1) requires “no judicial involvement to effect the dismissal
of the case.” Id. at 500.
The reasoning espoused by Malibu Media represents
the majority view amongst the federal district courts. E.g.,
O.F. Mossberg & Sons, Inc. v. Timney Triggers, LLC,
2018 WL 4398249, at *6 (D. Conn. 2018) (finding party
could not be prevailing party because dismissal under
Rule 41(a)(1) is not “judicially sanctioned” as required by
Buckhannon); Smalley v. Account Services Collections,
Inc., 2017 WL 1092678, at *2 (W.D. Pa. Mar. 23, 2017)
(“While a [voluntary] dismissal with prejudice . . . may
effect a change in the legal relationship of the parties
. . . it is still insufficient to confer prevailing-party status
because it is not a court-ordered change.”); Hopkins
Manufacturing Corporation v. Cequent Performance
Products, Inc., 223 F. Supp. 3d 1194, 1202 (D. Kan. 2016)
(“Even if the stipulation were to state the dismissal was
with prejudice, a plaintiff’s voluntary dismissal under
Rule 41(a)(1)(A)(ii) is not judicially sanctioned because it
does not require a court order, nor does the court have the
authority to place any conditions on it.”); Harris v. Captiva
Condominiums, LLC, 2008 WL 4911237, at *2 (M.D. Fla.
2008) (“Under the rule in Buckhannon and its progeny,
a voluntary dismissal pursuant to Rule 41(a)(1) does not

11
create a prevailing party because it did not require judicial
approval, and thus the judicial imprimatur requirement
is not met.”).
In the ruling below, the Fourth Circuit failed to
recognize that under Buckhannon judicial involvement
in granting relief is a necessary precondition to gaining
“prevailing party” status. The Nexus Plaintiffs voluntarily
dismissed their case before judicial intervention became
necessary to effectuate a dismissal of the claims. The
Defendants therefore could not be prevailing parties and
were not entitled to attorneys’ fees under 42 U.S.C. § 1988.
CONCLUSION
For the reasons stated, the petition should be granted.
Respectfully submitted,
Joseph R. Pope
Counsel of Record
Williams Mullen
200 South 10th Street, Suite 1600
P.O. Box 1320
Richmond, Virginia 23219
(804) 420-6000
jpope@williamsmullen.com
Counsel for Petitioners

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE FOURTH
CIRCUIT, FILED FEBRUARY 7, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-1445
NEXUS SERVICES, INC.; MICHAEL DONOVAN;
RICHARD MOORE,
Plaintiffs-Appellants,
AMY C.M. BURNS; MARY DONNE PETERS;
MICHAEL J. GORBY; ANDRE ARIS HAKES,
Appellants,
v.
DONALD LEE MORAN, IN HIS INDIVIDUAL
CAPACITY AND IN HIS OFFICIAL CAPACITY,
AS A DEPUTY SHERIFF OF AUGUSTA COUNTY,
VIRGINIA; DONALD L. SMITH, IN HIS
INDIVIDUAL CAPACITY AND IN HIS OFFICIAL
CAPACITY AS A SHERIFF OF AUGUSTA
COUNTY, VIRGINIA; MICHAEL ROANE, IN HIS
INDIVIDUAL CAPACITY AND IN HIS OFFICIAL
CAPACITY AS A DEPUTY SHERIFF OF AUGUSTA
COUNTY, VIRGINIA,
Defendants-Appellees,

2a
Appendix A
and
DAVID L. BOURNE, IN HIS INDIVIDUAL
CAPACITY; WANDA JEAN SHREWSBURY, IN
HER INDIVIDUAL CAPACITY AND IN HER
OFFICIAL CAPACITY AS COMMISSIONER
OF THE REVENUE OF AUGUSTA COUNTY,
VIRGINIA; GENE R. ERGENBRIGHT, IN HIS
INDIVIDUAL CAPACITY AND IN HIS OFFICIAL
CAPACITY AS A BUSINESS TAX AUDITOR FOR
AUGUSTA COUNTY, VIRGINIA; JOHN DOES 1-20,
Defendants.
February 1, 2019, Submitted
February 7, 2019, Decided
Appeal from the United States District Court for the
Western District of Virginia, at Harrisonburg.
(5:16-cv-00035-EKD-JCH).
Elizabeth Kay Dillon, District Judge.
Before GREGORY, Chief Judge, THACKER, Circuit
Judge, and SHEDD, Senior Circuit Judge.
PER CURIAM:
The Appellants, Nexus Services, Inc., Michael
Donovan, and Richard Moore, and their attorneys below,
Mary Peters, Amy Burns, Michael Gorby, and Andre
Hakes, appeal the district court’s award of attorney’s
fees against the Plaintiffs pursuant to 42 U.S.C. § 1988(b)

3a
Appendix A
(2012), against the attorneys pursuant to 28 U.S.C. § 1927
(2012), and alternatively pursuant to the court’s inherent
authority to sanction the parties, following the Plaintiffs’
voluntary dismissal of their complaint alleging violations
of 42 U.S.C. § 1983 (2012). We have thoroughly reviewed
the record and have found no reversible error. Accordingly,
we affirm the district court’s order. We dispense with oral
argument because the facts and legal contentions are
adequately presented in the materials before this court
and argument would not aid in the decisional process.
AFFIRMED

4a
B
APPENDIX B — Appendix
MEMORANDUM
OPINION
OF THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF VIRGINIA,
HARRISONBURG DIVISION, FILED
MARCH 23, 2018
UNITED STATES DISTRICT COURT FOR
THE WESTERN DISTRICT OF VIRGINIA,
HARRISONBURG DIVISION
Civil Action No. 5:16-cv-00035
NEXUS SERVICES, INC., et al.,
Plaintiffs,
v.
DONALD LEE MORAN, et al.,
Defendants.
March 23, 2018, Decided;
March 23, 2018, Filed
By: Elizabeth K. Dillon, United States District Judge.
MEMORANDUM OPINION
The plaintiffs voluntarily dismissed this case after
repeatedly seeking leave to amend and after opposing
numerous motions to dismiss filed by defendants. Sheriff
Donald L. Smith and deputies Donald Lee Moran and
Michael Roane (collectively “the Sheriff defendants”)

5a
Appendix B
have now filed a motion for attorneys’ fees, asking that
fees be assessed against plaintiffs and plaintiffs’ counsel.
The motion has been fully briefed and was argued before
the court.
As discussed in more detail herein, plaintiffs’ lawsuit
included several frivolous claims at the outset, requiring
defendants to expend considerable resources reviewing
and responding to those claims. The court further
concludes that the Sheriff defendants are prevailing
parties, having obtained a dismissal that operates as a
dismissal with prejudice. Thus, the Sheriff defendants are
entitled to fees as a prevailing party against plaintiffs. The
court also imposes an award of fees on plaintiffs’ attorneys
because it finds that they acted in bad faith. Not only did
they assert frivolous claims and steadfastly cling to them,
but they also unnecessarily complicated and extended this
litigation through their conduct. They included numerous
irrelevant allegations in every complaint or proposed
complaint that they filed and mischaracterized documents
upon which they relied. They sought leave to file an
amended complaint mere days before a hearing on the first
round of motions to dismiss, even though those motions
had been fully ripe for months. Then, at the hearing, and
after the court raised questions about the sufficiency
of plaintiffs’ allegations, they sought additional leave to
amend, initially to add “new” allegations against two
individual defendants and then expanding their request to
be permitted to add allegations against all defendants. But
after the court allowed them to file a new motion to amend,
plaintiffs’ counsel took a completely different course.
Rather than adding “new” allegations against those

6a
Appendix B
two defendants, plaintiffs’ proposed amended complaint
dismissed them from the case and instead simply added
allegations against other defendants, some of which were
again irrelevant to the claims, and attempted to add a
new defendant. In short, the conduct of plaintiffs’ counsel
extended this case unnecessarily and caused the Sheriff
defendants to expend resources unnecessarily.
For these reasons, the court will grant the motion
for attorneys’ fees, although it will not grant the full
amount sought by the Sheriff defendants. It will stay the
imposition of the fee award until it has the opportunity
to make a final determination of the amount, taking
into account any additional fee request by the Sheriff
defendants for fees incurred as a result of plaintiffs’
opposition to the motion for attorneys’ fees. It will also
allow plaintiffs’ attorneys to present any evidence they
desire regarding their ability to pay.1
1. The docket lists five counsel of record for plaintiffs. They
include Andre Aris Hakes of the law firm Tucker Griffin Barnes PC
in Charlottesville, Virginia, and four attorneys from the Atlanta,
Georgia firm of Gorby, Peters & Associates, LLC—Amy C.M. Burns,
Mary Donne Peters, Michael J. Gorby, and Sarah Michelle Phaff.
Ms. Phaff was admitted pro hac vice late in the case, her name does
not even appear on many subsequent pleadings, she never appeared
at any hearing, and she does not appear to have participated in any
great degree in this case. Given the extremely limited nature of
her apparent involvement, the court will not impose any fees upon
her. Blue v. U.S. Dep’t of Army, 914 F.2d 525, 546 (4th Cir. 1990)
(recognizing the authority of a district court, in awarding fees, to
consider factors “such as an attorney’s experience and whether
the attorney entered the case at an advanced stage”). Mr. Gorby,
however, was present at the last hearing on the motion for attorneys’

7a
Appendix B
I. BACKGROUND
Plaintiffs NEXUS Services, Inc. (Nexus) and two of
its officers, Micheal Donovan2 and Richard Moore, initially
filed suit in state court against the same defendants
named in this federal suit, alleging violations of state law.
(Compl. ¶ 83, Dkt. No. 1; Proposed Am. Compl. ¶ 111, Dkt.
No. 77.)3 After demurrers were filed there, the plaintiffs
nonsuited that case. (Proposed Am. Compl. ¶ 111 n.6.)
They then filed this lawsuit on June 6, 2016, alleging most
of the same facts and including federal and state claims.
Because the court’s imposition of fees is intertwined with
the factual allegations in this case and their lack of merit,
it is necessary to provide a fair amount of background
about the plaintiffs’ factual allegations, in addition to the
procedural history of the case.

fees in June 2017, and his name appears on many, if not all, of the
filings in this case, as do the names of Ms. Burns, Ms. Peters, and Ms.
Hakes. The latter three were present at all three in-person hearings.
Ms. Hakes was local counsel and was not the primary counsel that
argued before the court, but her name nonetheless appears on the
pleadings and she was present at all three hearings before the court.
Given their levels of involvement, the court will hold Mr. Gorby, Ms.
Burns, Ms. Peters, and Ms. Hakes each responsible for one-fourth
of the amount of fees imposed on the attorneys.

2. In a few documents, including one document on Nexus
letterhead, Donovan’s first name is spelled Michael. But most
documents use the spelling Micheal.
3. The proposed amended complaint under consideration is set
forth as part of Dkt. No. 77. The exhibits thereto are those set forth
as part of Dkt. No. 74-1.

8a
Appendix B
According to the original complaint, Nexus is a
Virginia corporation with its principal place of business
in Augusta County. Donovan is the President and CEO of
Nexus; Moore is its Executive Vice-President. (See Compl.
¶¶ 1-3; Proposed Am. Compl. ¶¶ 9-10.)
The activities at issue in this lawsuit primarily concern
Nexus’s charitable criminal bonding program, launched in
2015, called “Serve by Nexus,” which plaintiffs describe
as “the nation’s most successful charitable bonding
program.” (Compl. ¶ 26; Proposed Am. Compl. ¶ 28.)
The program is a “charitable criminal bonding program
designed to secure bonds for any individual who was
awaiting a criminal trial in Harrisonburg, Augusta, and
Rockingham Counties, who qualified for a bond, but who
remained incarcerated because he or she could not afford
to post bond.” (Proposed Am. Compl. ¶ 28.) Based on the
facts set forth in the Complaint and incorporated exhibits,
it appears that Nexus pays a licensed bail bondsman to
post a bond for incarcerated persons, but Nexus itself pays
the bond fees, rather than requiring any payment from
the incarcerated person. (Id. ¶¶ 35-38 & Ex. A; see also
Pls.’ Post-Hr’g Mem. 7 n.2, Dkt. No. 88.)
Defendant Bourne is a licensed bail bondsman and,
according to the allegations in the complaint, is the
primary for-profit criminal bondsman in Augusta County.
He works as a general agent for several companies.
Defendant Deputy Moran used to be employed by Bourne.
In addition to Bourne and the Sheriff defendants, the
original complaint also included as defendants Wanda Jean
Shrewsbury, the Commissioner of Revenue of Augusta

9a
Appendix B
County, and Gene R. Ergenbright, one of her employees.
As discussed in more detail below, plaintiffs voluntarily
dismissed those defendants after the first hearing on
motions to dismiss.
In their proposed amended complaint, Donovan and
Moore described themselves as “outspoken civil rights
leaders, philanthropists[,] and entrepreneurs who live
and work in Augusta County.” (Proposed Am. Compl.
¶ 21.) Donovan also anchors a radio and television
program known as “Breaking Through,” which defendants
characterize as an infomercial. According to the complaint,
the “Breaking Through” program “focuses on: the civil
rights of women and minorities, including persons of
African or Hispanic descent; the LGBTQ community; and
on criticizing the actions of government officials which may
amount to misconduct, or abridgement of civil rights.” (Id.
¶ 24.) In addition to the “Breaking Through” program,
which apparently contained some commentary critical
of the Sheriff, Nexus also was advertising its charitable
bonding program starting at some point in the early part
of 2016.
Both the original complaint and the proposed amended
complaint included extensive detail about (and attached
as exhibits) various documents that plaintiffs obtained
through the inadvertent and overbroad response of the
Augusta County Attorney, not a party here, to a Freedom
of Information Act (FOIA) request. 4 The documents
4. Specifically, on April 6, 2016, a Nexus representative sent
a FOIA request to the Augusta County Attorney, seeking all
communications that referred to Nexus or certain of its principals.

10a
Appendix B
included various emails sent to and from Bourne, who
expressed concern both about the possible criminality of
Nexus’s bonding program and about the impact it would
have on his bail bonding business. Based substantially on
those documents and on other alleged acts of harassment
by the sheriff’s deputies against Nexus or its employees, 5
(Proposed Am. Compl. Ex. P.) On April 22, the County produced
documents on a usb drive in response to the request. According to
a letter sent later, though, apparently the “wrong” usb drive was
provided. (Id. at Ex. Q.) On the drive given to Nexus, the County
also inadvertently and without authorization provided records of
the independent constitutional officers who share computer server
space with Augusta County, such as the Sheriff. These included
confidential tax records from the Office of the Tax Commissioner,
documents that are prohibited from disclosure by statute, as well as
other documents including intelligence reports for the Virginia State
Police fusion center, criminal investigation reports, and identifiable
information for individuals housed in the Middle River Regional
Jail. (Proposed Am. Compl. ¶ 106 & Ex. Q.) After discovering the
information, Nexus, through counsel, turned it over to the United
States Attorneys’ Office in Roanoke on April 30, 2016. The U.S.
Attorneys’ Office advised that it might notify the local authorities
of the overbroad disclosure. (Proposed Am. Compl. ¶ 107.)
Thus, this case is somewhat unusual in that plaintiffs had access
to thousands of pages of documents from defendants prior to filing
suit, most of which they received as part of an erroneously overbroad
response by Augusta County, not a party here, to a FOIA request.
Indeed, many of the documents attached as exhibits to their original
complaint and their proposed amended complaint are ones plaintiffs
received in response to their FOIA request.

5. It is worth noting that the “harassment” did not involve
any legal action being taken against any plaintiff by any Sheriff
defendant. No tickets or citations were issued, no charges were
brought, and neither individual plaintiff was ever arrested or

11a
Appendix B
plaintiffs alleged that there was a conspiracy between
all the defendants and further alleged that the Sheriff
defendants acted in retaliation for Nexus’s speech.
Specifically, plaintiffs allege that defendants retaliated
against them for plaintiffs’ protected speech, i.e., the
Breaking Through program and ads for Nexus’s charitable
bonding program. Plaintiffs also alleged that defendants’
actions were in response to its First Amendment
petitioning rights, in filing both the state lawsuit and
this lawsuit, given that the alleged harassment continued
after that point. The only other federal claim alleged was
plaintiffs’ allegation that they were seized in violation the
Fourth Amendment, during a May 28, 2016 incident. (See
generally Proposed Am. Compl. Count I.)
In their original complaint, plaintiffs asserted
various claims against different defendants. As noted,
the federal claims included Section 1983 claims alleging
that all defendants except Bourne violated plaintiffs’
First Amendment rights, as already discussed. Plaintiffs
also asserted a Section 1983 claim against the Sheriff
defendants premised on an alleged seizure that occurred
in May 2016 at Donovan and Moore’s home. State law
even questioned directly, as far as it is alleged in the complaint.
Instead, the harassment involved supposed threats in conjunction
with statements to certain Nexus employees that Nexus should not
be investigating law enforcement, frequent drive-bys of Nexus’s
corporate campus and the Donovan/Moore home, an “aggressive
driving incident,” and some other alleged incidents. It is apparently
undisputed (and indeed, was alleged in the complaint) that Nexus
was under some level of investigation by law enforcement authorities
as a result of its charitable bonding program.

12a
Appendix B
claims included a common law defamation claim and
“insulting words” claim against Bourne, as well as a
state civil conspiracy claim against all defendants. (See
generally Compl.)
After the lawsuit was filed, the defendants filed
motions to dismiss, and the court scheduled a hearing on
the motions for October 2016, which was later rescheduled
to January 2017. In September 2016, plaintiffs filed their
first motion to amend. All of the briefing on all motions
was completed by October 2016. Three days before the
rescheduled hearing, however, plaintiffs filed a second
motion to amend or correct their complaint.
At the January 13, 2017 hearing, the court asked
rather pointed questions of plaintiffs’ counsel regarding
the lack of supporting factual allegations for a number of
their claims. By way of example only, the plaintiffs had
made much (in their complaint, in comments to the press,
and at the motion to dismiss hearing) about a “Hitler
emoji” that appeared in an email between Shrewsbury and
Ergenbright. While any image evoking Hitler obviously
can be offensive, the emoji was contained in an internal
email between two work colleagues in which, taken in
context, one was jokingly calling the other a “meanie” and
a taskmaster. The emails did not pertain to Nexus, nor
should they ever have been disclosed to Nexus. The only
reason Nexus had them was due to the improper response
to the FOIA request. There was certainly no indication
that those emails were intended to chill the First
Amendment rights (or any other rights) of the plaintiffs,
particularly given that they were never intended to be seen

13a
Appendix B
by the plaintiffs. The court also questioned repeatedly
whether there were allegations showing knowledge on
the part of Shrewsbury and Ergenbright about plaintiffs’
protected activity and also what allegations showed any
connection between Shrewsbury and Ergenbright and
the other defendants, so as to support the plaintiffs’
conspiracy claim.
In response specifically to the court’s questioning
about defendant Shrewsbury and Ergenbright, plaintiffs’
counsel repeatedly assured the court that there were
additional allegations that had not yet been included in
their pleading (or in the pleading attached to the second
motion to amend, which had been filed three days prior).
In large part because of counsel’s representation that
there were additional allegations that would bolster their
claims against Shrewsbury and Ergenbright, the court
granted the plaintiffs permission to withdraw their prior
motions to amend, and to file a single, omnibus motion for
leave to amend. The court thus directed plaintiffs to file
a motion for leave to file a third amended complaint by
January 30, 2017.
On that date, plaintiffs filed such a motion, but also
filed a notice of voluntary dismissal of Shrewsbury and
Ergenbright. Effectively, then, the plaintiffs used their
deficient claims against Shrewsbury and Ergenbright
to request an additional opportunity to seek leave to
amend their complaint, but then chose to dismiss those
defendants and add additional allegations against the
other defendants instead. While the court believes that
the voluntary dismissal of the claims against Shrewsbury

14a
Appendix B
and Ergenbright was appropriate, it is concerned that
counsel was not candid with the court about why it was
seeking leave to amend.
The proposed amended complaint filed in January
contained additional allegations, omitted others, and
modified the claims slightly. The primary changes to the
claims were that: (1) the alleged constitutional violations
(previously counts I, II, and III) were grouped in a single
count, and the statutory basis for them was amended to
include 42 U.S.C. § 1988; and (2) the Insulting Words claim
against Bourne was dropped.
The third motion to amend and related motions
were argued before the court at a hearing on March 2,
2017. Before the court issued its rulings, plaintiffs filed a
notice of voluntary dismissal with regard to all remaining
claims.6 Pursuant to Federal Rule of Civil Procedure
41(a)(1)(B), and due to the prior nonsuit of the state court
suit, that dismissal operates as a dismissal with prejudice
of the plaintiffs’ claims.

6. At the time of dismissal, there were four motions pending
before the court: (1) a motion to dismiss filed by the Sheriff
defendants, seeking the dismissal of plaintiffs’ original complaint
in its entirety on various grounds; (2) a motion to dismiss filed by
defendant David Bourne, the bail bondsman; (3) plaintiffs’ third
motion to amend their complaint; and (4) plaintiffs’ motion to strike
the sur-reply of defendants. Although not filed as a separate motion,
defendants also requested in their briefing that the court impose
sanctions, both against plaintiffs and, pursuant to 28 U.S.C. § 1927,
directly against plaintiffs’ attorneys.

15a
Appendix B
II. DISCUSSION
The Sheriff defendants argue that an award of fees
is appropriate on three different grounds. The court
addresses each in turn. It turns first, though, to a discussion
and analysis of the strength and procedural history of one
of plaintiffs’ two federal claims—its Section 1983 claim
based on an alleged violation of the Fourth Amendment,
which is relevant to the court’s analysis. As will be shown,
plaintiffs’ pursuit of their Fourth Amendment claim is
illustrative of the conduct the court believes warrants
an award of fees against counsel. As discussed in more
detail below, that claim was weak from the outset, but
once a video apparently showing the supposed violation
was published by plaintiff Donovan, the continued pursuit
of that claim was in bad faith. The court does not find the
First Amendment claim to be frivolous, although the court
believes it lacked factual and legal merit and was subject
to dismissal. The court also discusses briefly why the civil
conspiracy claim was frivolous.
A. Claims
1.

The Section 1983 claim alleging a violation of
the Fourth Amendment

In their original complaint, one of plaintiffs’ claims
(presumably brought only by Moore and Donovan,
although both complaints grouped all plaintiffs together
as to the Fourth Amendment claim) was a Section 1983
claim based on the supposed seizure of the two men in
violation of the Fourth Amendment.

16a
Appendix B
In order to state a Section 1983 claim based on an
unreasonable seizure, a plaintiff must establish that he
was “seized” for purposes of the Fourth Amendment and
that the seizure was without adequate justification. Santos
v. Frederick Cty. Bd. of Comm’rs, 725 F.3d 451, 460 (4th
Cir. 2013).
The original complaint failed to allege adequately any
seizure of Moore and Donovan by anyone, let alone by any
named defendant. The complaint merely alleged that, on
May 28, 2016, “two uniformed deputies of the August
County Sheriff’s Office in marked government cars made
a rapid approach to the personal residence of Moore and
Donovan in tactical formation and blocked the ingress
and egress to their residence.” (Compl. ¶ 84; Proposed
Amended Compl. ¶ 113.) Plaintiffs originally alleged that
the deputies blocked the driveway of the residence “so as
to prohibit ingress or egress” and thus “prohibited Moore
and Donovan from leaving the residence without officer
permission” (Compl. ¶ 108), although that allegation was
omitted from the proposed amended complaint.
Both the complaint and the proposed amended
complaint were scant on the details of this incident. For
example, plaintiffs did not specify how long the cars were
parked there, or whether anyone in the home attempted
or asked to leave. They appear to allege that the deputies
spoke to the plaintiffs’ private security guards, stating
that “[t]he Deputies advised the Plaintiffs’ personal
security guards that their visit was simply to determine
what type of car Mr. Donovan drove, despite the fact that
they had already run the details on his plate information

17a
Appendix B
two months earlier in March.” (Proposed Am. Compl.
¶ 113.) But there is certainly no allegation of the deputies
speaking with Donovan or Moore.
In their proposed amended complaint, plaintiffs added
the allegation that Moore and Donovan were present in
the home and witnessed the deputies arrive at their home.
They also allege that they “perceived the arrangement of
police cars as blocking their ability to leave their home,
which constituted an unlawful detainment.” (Id.)
The standard in determining a seizure, however, is
not whether plaintiffs thought egress to their home had
been blocked by the deputies stopping their cars in a public
roadway in front of their home, but whether “in view of
all [of] the circumstances surrounding the incident, a
reasonable person would have believed that he was not free
to leave.” United States v. Gray, 883 F.2d 320, 322 (4th
Cir. 1989). That standard clearly is not met by plaintiffs’
allegations.
In opposition to the motion to dismiss this claim,
plaintiffs relied on United States v. Jones, 678 F.3d 293 (4th
Cir. 2012). That reliance was entirely misplaced, however,
because Jones is easily distinguishable. In Jones, a marked
police car turned around to follow the defendant’s car and
the police proceeded to follow the car for blocks, closely
enough to look for traffic violations. Although the police
did not observe any traffic violations, when the car pulled
into a private driveway, the police parked the cruiser in
such a way as to block the defendant’s car from leaving the
scene. The police officers then “quickly approached Jones
by the driver’s side of his car.” Id. at 300, 305. Thus, the

18a
Appendix B
court held that the facts “lacked a traditional hallmark
of a police-citizen consensual encounter: the seemingly
routine approach of the police officer.” Id. at 300 (citation
omitted).
Critically, the Jones court discussed a number of cases
that reached the opposite conclusion, i.e., that there was
no seizure, and it distinguished them from the facts before
it. Those cases are closer to the facts here, although even
those cases showed something more akin to a seizure than
what allegedly occurred here. The Jones court explained:
We ag ree that when an off icer blocks a
defendant’s car from leaving the scene,
particularly when, as here, the officer has
followed the car, the officer demonstrates a
greater show of authority than does an officer
who just happens to be on the scene and engages
a citizen in conversation. For this reason, the
three cases on which the Government relies are
inapposite. See United States v. Thompson, 546
F.3d 1223 (10th Cir. 2008); United States v. Kim,
25 F.3d 1426 (9th Cir. 1994); United States v.
Pajari, 715 F.2d 1378 (8th Cir. 1983). In those
cases, unlike the one at hand, the officers did
not target and follow the defendant’s car before
blocking it in. The officers here did not merely
“come upon an already parked car” as they did
in Kim, 25 F.3d at 1430, or approach incognito
from behind the defendant’s parked car as they
did in Pajari, 715 F.2d at 1380-81. Nor did the
police merely ask to speak with a pedestrian
who happened to be walking toward his car, as

19a
Appendix B
the officer did in Thompson, 546 F.3d at 122425. Rather, Jones saw the officers follow his car
from a public street onto private property and
then block the car from exiting in their haste
to speak with him.
Jones, 678 F.3d at 302.
Furthermore, although the Jones court analyzed the
encounter at the point before the “verbal encounter” began
and held that a reasonable driver in Jones’s position would
not have felt free to leave, it also stated that it was the
“totality of the facts” of the entire encounter that showed a
seizure, rather than a consensual encounter, had occurred.
It summarized:
[T]wo police officers in uniform in a marked
police patrol car conspicuously followed Jones
from a public street onto private property and
blocked Jones’s car from leaving the scene. The
officers then quickly approached Jones by the
driver’s side of his car—letting two other vehicle
occupants walk away—and nearly immediately
asked first that he lift his shirt and then that he
consent to a pat down search for weapons. . . .
Any one of these facts on its own might very
well be insufficient to transform a consensual
encounter into a detention or seizure, but all
of these facts viewed together crystallize into
a Fourth Amendment violation.”
Id. at 305 (emphasis added).

20a
Appendix B
In stark contrast, no Fourth Amendment violation was
ever adequately alleged here. Donovan and Moore alleged
that they were in their home when the police stopped on
a public roadway in front of their driveway. But they did
not allege that they had any interaction or discussion at
all with the deputies who were blocking their driveway
for some unspecified period of time. They did not allege
that the deputies turned on any emergency lights on their
cars, that weapons were drawn, that the deputies used
raised voices, that the deputies touched anyone, or that
the deputies made any coercive demands at all. See, e.g.,
Santos v. Frederick Cty. Bd. of Comm’rs, 725 F.3d 451,
461-62 (4th Cir. 2013) (identifying some of the factors
for a court to consider in distinguishing seizures from
consensual encounters); United States v. Weaver, 282
F.3d 302, 310 (4th Cir. 2002) (same). Plaintiffs also did not
allege that they ever attempted or asked for permission
to leave their house, that they were ever told they could
not, or any facts to support a conclusion that a reasonable
person would not have felt free to leave. In short, their
allegations are a far cry not only from the facts in Jones,
but also from all the cases that Jones distinguished, which
did not find seizures.
The cases relied upon by plaintiffs in their opposition
did not overcome the paucity of their allegations, either.
Those cases, as is clear even from the explanatory
parentheticals plaintiffs included accompanying them, all
involved persons physically present in or near cars that
were blocked by police cars. (See Pls.’ Opp’n to Sheriff
Defs.’ Mot. Dismiss 22-23, Dkt. No. 38.) None of them
involved persons in their homes, where the police stopped

21a
Appendix B
in front of the driveway and did not even attempt to speak
to those persons. Thus, those cases offer no support to
plaintiffs at all in their assertion that they were seized.
See also O’Malley v. City of Flint, 652 F.3d 662, 668-69
(6th Cir. 2011) (holding that a plaintiff, who was out of his
vehicle and walking toward his home, was not seized when
a police officer parked behind his vehicle in a driveway;
noting that “parking behind a vehicle in a driveway does
not inherently send a message of seizure because it is
how driveways are routinely used”; and distinguishing
cases where persons inside of cars were blocked by police
cars); Monroe v. City of Charlottesville, Va., 579 F.3d 380
(4th Cir. 2009) (holding that no seizure occurred where a
uniformed officer approached the plaintiff at his home and
asked for a DNA sample but at no point told the plaintiff
that he could terminate the encounter).
In addition to the claim failing because there was
no allegation that a reasonable person inside Moore
and Donovan’s home would not have felt free to leave,
a Fourth Amendment seizure occurs only if there is a
“submission to a show of governmental authority.” United
States v. Stover, 808 F.3d 991, 995-96 (4th Cir. 2015).
“‘[W]ithout actual submission’ to the police, ‘there is at
most an attempted seizure,’ which is not subject to Fourth
Amendment protection.” Id. at 996 (quoting Brendlin v.
California, 551 U.S. 249, 254, 127 S. Ct. 2400, 168 L. Ed.
2d 132 (2007)); see also Rutledge v. Town of Chatham,
No. 4:10-cv-35, 2010 U.S. Dist. LEXIS 122273, 2010 WL
4791840, at *5 (W.D. Va. Nov. 18, 2010) (citing Desyllas
v. Bernstine, 351 F.3d 934, 940 (9th Cir. 2003) as holding
that there is no seizure where the plaintiff “never asked

22a
Appendix B
to leave” even though the defendants never told him he
could leave), aff’d, 414 F. App’x 568 (4th Cir. 2011). Thus,
the court easily concludes that this claim was not wellfounded from the outset.
A subsequent development in the case, moreover, made
patently clear that the claim was not viable and indeed, that
it was “frivolous, unreasonable, or groundless,” thereby
allowing the court to award fees under 42 U.S.C. § 1988.
See Hutchinson v. Staton, 994 F. 2d 1076, 1080 (4th Cir.
1993) (explaining that prevailing defendants may receive
a fee award when “the plaintiff’s claim was ‘frivolous,
unreasonable, or groundless,’ or when ‘the plaintiff
continued to litigate after it clearly became so’”) (quoting
Christiansburg Garment Co. v. EEOC, 434 U.S. 412,
422, 98 S. Ct. 694, 54 L. Ed. 2d 648 (1978)). See 42 U.S.C.
§ 1988. Specifically, defendants provided to the court a
copy of a video that Donovan made publicly available by
uploading it to YouTube as part of Nexus’s “New Year’s
2017 Message.” The video has a date stamp of May 28,
2016, the same date as the alleged seizure, and shows
two sheriff’s deputies pulling into a cul-de-sac in front of
a home. (See Video at 1:11, Dkt. No. 79-2; disc docketed
separately as Dkt. No. 81; also accessible at https://www.
youtube.com/watch?v=9rdjG34AiYQ&sns=em (last
accessed March 23, 2018)).
The camera that is recording appears to be positioned
in the dash of a vehicle sitting in what the court presumes
is Donovan and Moore’s driveway and looking out on the
cul-de-sac. For the YouTube video, text has been added
at the bottom of the screen that says “Dashcam Video

23a
Appendix B
of Augusta Co Deputies Harassing Nexus Employees.”
There is also a running timestamp in the video, and the
time stamp shows that the cars begin driving down the
street at 13:58:56. The video shows one sheriff’s deputy
pulling into the cul-de-sac as if turning around; another
deputy in a separate car pulls up turning the opposite
way, and the two cars stop briefly. At no time does either
deputy exit either vehicle. The deputy closest to the
driveway might have spoken from his car to someone in
the parked car or the two deputies might have spoken to
each other; it is not possible to tell from the video. They
then drive away. The first time one of the cars was in front
of the driveway was at 13:59:02. They begin to pull away
at 13:59:34, 32 seconds later, and are out of the cul-de-sac
and back up the main portion of the street at 13:59:49. So,
the entire time the driveway was blocked, if at all, was 32
seconds, and the cars were present in the cul-de-sac for
less than one minute.
No other people appear in the video, which gives
a clear view of the entire road constituting the cul-desac. The video does not reflect whether there were any
occupants in the vehicle equipped with the dash cam, and
at no point does it appear that either that vehicle or any
other vehicle or person was trying to leave the driveway, or
that either deputy attempted to stop anyone from leaving.
Furthermore, at no point are the deputies anywhere other
than what appears to be a public roadway.
It appears to the court that the incident depicted in
the video shows the events on which plaintiffs’ Fourth
Amendment claim is based, and plaintiffs’ counsel never

24a
Appendix B
suggested otherwise. Furthermore, defendants provided
a copy of that video to plaintiffs’ counsel at some point
before the hearing on the third motion to amend, and
yet plaintiffs’ counsel made no attempt at any point to
withdraw the Fourth Amendment claim.7
2.

The Section 1983 claim alleging a violation of
the First Amendment

Plaintiffs’ First Amendment retaliation claim was
subject to dismissal because plaintiffs did not adequately
allege facts supporting a “causal relationship between
[their] protected activity and the defendants’ conduct[,]”
the third element of such a claim. Constantine v. Rectors
& Visitors of George Mason Univ., 411 F.3d 474, 499 (4th
Cir. 2005). Because the court concludes, however, that
the First Amendment claim was not frivolous and does
not base any award of fees on the nature of that claim, it
does not discuss that claim further.

7. At the March 3, 2017 hearing before the court, when this issue
arose, one of plaintiffs’ attorneys, Ms. Peters, simply referred the
court to plaintiffs’ response to the motion to dismiss and the cases
cited therein that she said showed that the “blocking of a home,
however brief” constituted a seizure. As already discussed above,
however, the cases cited in plaintiffs’ response do not involve blocked
homes, but persons who were physically present in cars that were
being blocked by police cars. Thus, the court does not believe those
cases in any way support the conclusion that the incident depicted in
the video, in which two deputies briefly stopped in front of Donovan
and Moore’s driveway and never exited their vehicles or spoke with
Donovan or Moore, constituted a seizure of either man.

25a
Appendix B
3.

The Civil Conspiracy Claim Based on Virginia
Code § 18.2-499

In both the complaint and the proposed amended
complaint, plaintiffs included a civil conspiracy claim
brought under Virginia Code § 18.2-499. The claim was
asserted by all plaintiffs against all defendants. “A civil
conspiracy is a combination of two or more persons, by
some concerted action, to accomplish some criminal or
unlawful purpose, or to accomplish some purpose, not
in itself criminal or unlawful, by criminal or unlawful
means.” Hechler Chevrolet, Inc. v. Gen. Motors Corp.,
230 Va. 396, 337 S.E.2d 744, 748 (Va. 1985) (citations
omitted). In order to state a claim, plaintiffs must allege:
“(1) concerted action; (2) legal malice; and (3) causally
related injury.” Turbomin AB v. Base-X, Inc., No.
6:09-cv-7, 2009 U.S. Dist. LEXIS 33886, 2009 WL
1024713, *11-12 (W.D. Va. Apr. 15, 2009) (quoting Schlegel
v. Bank of Am., N.A., 505 F. Supp. 2d 321, 325 (W.D. Va.
2007), and citing Allen Realty Corp. v. Holbert, 227 Va.
441, 318 S.E.2d 592, 596 (Va. 1984)). “Concerted action”
requires a plaintiff to sufficiently allege that the defendant
“combined, associated, agreed, mutually undertook, or
concerted together” with someone else in the injurious
conduct. Va. Code Ann. § 18.2-499; Simmons v. Miller, 261
Va. 561, 544 S.E.2d 666, 677 (Va. 2001). A plaintiff must
prove that the defendants “combined together to effect a
preconceived plan and unity of design and purpose.” Id.
(citations omitted).
A review of the complaint and proposed amended
complaint reveals that both contain wholly insufficient

26a
Appendix B
allegations to support a civil conspiracy claim. Indeed, the
court concludes that the claim was not only inadequately
pled, but on balance, the entire claim was frivolous. Rather
than go through the many deficits of this claim, the court
points to the various defendants’ motions to dismiss that
addressed it. In short, plaintiffs woefully failed to meet the
pleading requirements of Ashcroft v. Iqbal, 556 U.S. 662,
129 S. Ct. 1937, 173 L. Ed. 2d 868 (2009), and Bell Atlantic
Corp. v. Twombly, 550 U.S. 544, 127 S. Ct. 1955, 167 L.
Ed. 2d 929 (2007), and they relied upon mere conclusory
allegations to assert their conspiracy claim. The court
notes, in particular, that there were no facts tying all of
the defendants together, and nothing other than rank
speculation to support an allegation that they all conspired
with an improper purpose to harm plaintiffs.
B. Legal Bases for Awarding Attorneys’ Fees
The Sheriff defendants seek an award of attorneys’
fees on three independent bases, each of which is governed
by a different standard and has different requirements
that must be met. The three bases are: (1) 28 U.S.C. § 1927,
which allows fees to be assessed against a party’s attorney,
if that attorney has acted improperly in extending the
litigation, which requires a finding of “bad faith”; (2) 42
U.S.C. § 1988, which allows fees to defendants here if (a)
the defendants are “a prevailing party”; and (b) plaintiffs’
claims (or some of them) were “frivolous, unreasonable,
or groundless” or “the plaintiff[s] continued to litigate
after [they] clearly became so”—both of which plaintiffs
challenge; and (3) the court’s inherent authority to assess
fees or otherwise sanction parties or attorneys who appear

27a
Appendix B
before it, which also requires a finding of bad faith. The
court discusses each independently.
1.

28 U.S.C. § 1927

The first basis the Sheriff defendants offer as
supporting an award of fees (assessed against plaintiffs’
attorneys) is 28 U.S.C. § 1927. That provision provides that
if an attorney “so multiplies the proceeding in any case
unreasonably and vexatiously,” then the court may order
that the attorney “satisfy personally the excess costs,
expenses and attorneys’ fees reasonably incurred because
of such conduct.” 28 U.S.C. § 1927. The attorneys can only
be assessed fees to the extent that those fees were caused
by their conduct, however. Fox v. Vice, 563 U.S. 826, 836,
131 S. Ct. 2205, 180 L. Ed. 2d 45 (2011).
The Sheriff defendants argue that the plaintiffs’
attorneys should be held responsible because Nexus’s
claims were legally and factually groundless from the
outset and its attorneys “pursue[d] and drag[ged] out
the lawsuit through dilatory, unreasonable, and bad faith
motions and procedural manipulations, their (often nonresponsive) responses to motions and representations
at Court hearings, and proceeding with allegations
increasingly shown to be fiction by Nexus’s own records
they put in the public domain, and pursued for the
improper purpose of harassing the Defendants.” (Dkt.
No. 96 at 26-27.) Plaintiffs counter that defendants are not
entitled to fees under 28 U.S.C. § 1927 because they cannot
establish bad faith on the part of Nexus’s attorneys, which
is a precondition to imposing fees under § 1927. E.E.O.C.
v. Great Steaks, Inc., 667 F.3d 510, 522 (4th Cir. 2012).

28a
Appendix B
As alluded to above, and for the additional reasons the
court explains next, the court concludes that defendants’
attorneys acted in bad faith and that they unnecessarily
or improperly extended the litigation. The court does not
believe that all of the claims against all defendants were
frivolous from the outset. For example, the court cannot
say that the state law defamation claim against Bourne
was frivolous. Nonetheless, some claims were clearly
meritless, and furthermore, some of counsel’s conduct
throughout the litigation demonstrates bad faith. See
Roadway Exp., Inc. v. Piper, 447 U.S. 752, 766, 100 S. Ct.
2455, 65 L. Ed. 2d 488 (1980) (“Bad faith may be found,
not only in the actions that led to the lawsuit, but also
in the conduct of the litigation.”) (citations and internal
quotations omitted).
First of all, the court finds that the timing of the
second motion to amend, coming three days before a
hearing, the subsequent seeking of leave to file a third
amended complaint, ostensibly to add allegations that
were not available three days prior, and the subsequent
voluntary dismissal of Ergenbright and Shrewsbury,
are all evidence of bad faith. These actions by plaintiffs’
counsel effectively delayed the resolution of the pending
motions to dismiss and required further briefing and a
second hearing.
The Fourth Amendment claim, as discussed above,
was so woefully inadequate as to be frivolous, given its
factual premise. Worse yet, counsel’s actions in continuing
to pursue the Fourth Amendment claim after the video
surfaced of the supposed seizure (and assuming counsel

29a
Appendix B
did not have access to it before then), was in bad faith.
Additionally, the First Amendment claims against
Ergenbright and Shrewsbury, which had an inadequate
factual basis from the start, unnecessarily prolonged this
litigation.
Another action by plaintiffs’ counsel also reflects
bad faith. Specifically, in their proposed third amended
complaint, and without mentioning at all in their motion
that they were attempting to add a party, plaintiffs added
“The Office of the Sheriff” as a party, including that entity
in the caption of the case and also stating that “[t]he
Augusta County Sheriff’s Office is a corporate body and
a political subdivision of the Commonwealth of Virginia
and is a ‘person’ subject to suit within the meaning of 42
U.S.C. Section 1983.” (Proposed Am. Compl. ¶ 7.)
In response, the Sheriff defendants pointed out the
well-settled law that the Office of the Sheriff is not a legal
entity and thus not subject to suit such that the proposed
amendment would be futile. After the error had been
pointed out, plaintiffs’ counsel did not acknowledge their
carelessness, misunderstanding, or mistake, but instead
they claimed that they had not “added” another defendant.
They asserted that they had simply included the Office
of the Sheriff to make clear that Sheriff Smith was being
sued in both his individual and official capacities and
that any injunctive relief obtained in his official capacity
“would legally also be against the Augusta County
Sheriff’s Office.” They claim there was nothing improper
or futile about the “clarification.” (Pls.’ Reply to Resp. to
Third Mot. Leave Amend 6, Dkt. No. 83.) Based on the

30a
Appendix B
record before the court, this statement about not adding a
party and merely clarifying their pleading, which counsel
again repeated at argument, is a misrepresentation: the
proposed amended complaint in fact adds the Office of
the Sheriff to the caption, adds a paragraph mistakenly
stating that the Office of the Sheriff could be sued, and also
adds in that plaintiffs are not seeking punitive damages
or treble damages against the Office of the Sheriff, but
they are seeking compensatory damages and other relief
against that entity.
When questioned about this at the hearing, plaintiffs’
counsel stated that if the court had “concerns” over the
addition, plaintiffs would withdraw the references to the
Office of the Sheriff. The court was concerned less about
the inclusion of the Office of the Sheriff (which entity
could not be added in any event because such amendment
would be futile) and more about counsel’s failure to ensure
that a claim had a reasonable basis in law before filing it,
as required by Federal Rule of Civil Procedure 11, and
counsel’s apparent lack of candor to the court about the
purpose of the proposed additions.
The court also notes that the various complaints filed
by plaintiffs’ counsel often contained repeated allegations
that were wholly irrelevant to plaintiffs’ claims. These
additional allegations resulted in additional expense to
every attorney for every defendant that had to review
them, respond to them, and otherwise reference them
in their motions. By way of example only, all of the
proposed complaints contained repeated references to
incidents involving racially charged language or to the

31a
Appendix B
fact that Donovan and Moore were an openly gay couple,
but there was no discrimination claim at all, and so the
individual plaintiffs’ races, the races or ethnicities of
many Nexus clients, and the plaintiffs’ sexual orientation
were irrelevant. Given that they had no connection to the
claims themselves, it appears to the court that many of
these allegations were included in pleadings simply as
part of an attempt to humiliate or shame the defendants.
Such efforts constitute an abuse of the judicial process,
and they waste this court’s time and the resources of all
parties and counsel.
Plaintiffs’ complaints also included allegations
that misrepresented attached documents or contained
conclusions that were so unsupported by—or even
contrary to—plaintiffs’ other allegations so as to render
them implausible. Three examples will suffice to make
the point.
First, in its original complaint, Nexus alleged that
a letter from the County Attorney (and its delivery by
a uniformed sheriff’s deputy) was part of defendants’
retaliatory conduct, and specifically alleged that the letter
had threatened prosecution. 8 (Compl. ¶ 81.) After the
8. Clearly upset by that email exchange containing the “Hitler
emoji,” plaintiffs reacted by having a letter hand-delivered to
Commissioner Shrewsbury on May 17, 2016, requesting that the
persons involved in the email exchange be fired from their positions
and that the Commissioner herself resign. (Compl. Ex. S.) A day later,
presumably after the Augusta County Attorney learned about the
overbroad disclosure, he had a letter personally delivered to Nexus
asking that the usb drive be returned and any copies destroyed.

32a
Appendix B
January 2017 hearing, during which the court pointed out
that the letter did not contain any threat of prosecution,
Nexus changed its allegations to state that the letter had
“implied” criminal prosecution. (Proposed Am. Compl.
¶ 109.) Even assuming that is true, the letter was sent
from the County Attorney, who was not a defendant in
this suit. Furthermore, it is plain from the face of that
letter that its purpose was to recover the data that had
been disclosed inadvertently. Thus, plaintiffs’ assertion
that “the apparent purpose of the May 18, 2016 letter
. . . was to continue the campaign of fear and intimidation
against Plaintiffs, and to seek to cover up the Defendants’
actions and obstruct justice by forcing Plaintiffs to destroy
evidence of potential criminal acts committed by County”
employees (Compl. ¶ 82; Proposed Am. Compl. ¶ 110)
borders on preposterous and is certainly not a reasonable
inference to be drawn from other facts alleged or the
letter itself.
Second, the original complaint stated that Donovan
retained a private security detail because he “[f]ear[ed]
for his safety and the safety of his employees as a result
of the activities of Deputy Sheriff Moran.” (Compl. ¶ 50
n.4.) In their proposed amended complaint, plaintiffs
allege only that Donovan “retained private security for
himself and other Nexus employees because he feared for
(Proposed Am. Compl. Ex. Q.) Nexus refused, saying it had already
handed the drive over to the U.S. Attorney, although it obviously
kept copies of the documents, many of which it has utilized in this
lawsuit. It contends that it had been instructed “to retain evidence
of the improper disclosures by the County” by state police officers.
(Proposed Am. Compl. ¶ 109 n.4.)

33a
Appendix B
his safety, the safety of his family, and the safety of the
employees of Nexus[,]” but does not attribute that fear
directly to Moran’s actions. (See Proposed Am. Compl.
¶ 77.) To the extent plaintiffs allege that Donovan hired
private security because he feared that the sheriffs (or
Moran, in particular) would do something to him, that is
not plausible based on the timing of other allegations in
the complaint. Clearly the private security was retained
prior to February 15, 2016, because by that date, Corporal
Young had personally visited the home on two occasions
to request that the private security guards provide
identification. (Id.) The only interaction alleged in the
complaint that occurred prior to that time between any
sheriff’s deputy and any member of Nexus was when
Moran asked two Nexus employees to assist him in an
investigation into Nexus. For Donovan to have thought,
based on that single interaction, that his or his employees’
“safety” was so at risk that they needed private security
guards makes no sense. The court finds it not at all
plausible, then, that the security guards were hired in
response to any actions by the defendants.
Third, in their proposed amended complaint, plaintiffs
alleged that, in reaction to an episode of “Breaking
Through,” unidentified persons in the Sheriff’s office
accessed the driving record of David Briggman, who hosts
the program with Donovan. (Id. ¶ 78.) They alleged that
the access was “not for lawful investigative purposes,
but was instead intended to obtain information to assist
Defendants in silencing protected free speech which was
critical of the Augusta County criminal justice system.”
(Id.) Again, this conclusion is not supported by any

34a
Appendix B
factual allegation and is counter-intuitive. The running
of a driver’s record can hardly be an act intended to chill
speech, when drivers are not automatically notified of who
has looked at their driving records and can only obtain that
information through an affirmative request. In any event,
Briggman was not a plaintiff. Again, this exemplifies the
conduct of including unrelated and irrelevant allegations
in their filings.
While these examples may not pertain to the most
critical issues in the case, they are illustrative of a pattern
by plaintiffs and their counsel and reflect their willingness
to misuse the judicial process or to mislead the court. The
court cannot—and will not—blindly look the other way
while such conduct occurs. So, it believes at least some
fees are warranted as against plaintiffs’ attorneys and
will discuss the appropriate amount separately.
2.

42 U.S.C. § 1988

The court also concludes that an award of fees is
appropriate under Section 1988. That provision allows
an award of fees to a prevailing party under certain
circumstances. Plaintiffs argue that an award under
§ 1988 is unavailable for two reasons: (1) defendants are
not a prevailing party because a voluntary dismissal is
what ended the case, rather than a judgment or consent
decree; and (2) a defendant can recover fees only where a
plaintiff’s case was “frivolous, unreasonable, or without
foundation” and the claims here were not.
As already noted above, the court believes that
at least some of the plaintiffs’ claims were frivolous,

35a
Appendix B
unreasonable, or without foundation, or that plaintiffs
continued to litigate after the claims “clearly became
so.” Hutchinson, 994 F. 2d at 1080 (a court may award
prevailing defendants a fee award when “the plaintiff’s
claim was ‘frivolous, unreasonable, or groundless,’ or
when ‘the plaintiff continued to litigate after it clearly
became so’”) (quoting Christiansburg Garment Co. v.
EEOC, 434 U.S. 412, 422, 98 S. Ct. 694, 54 L. Ed. 2d 648
(1978)). At the very least, this includes the claims against
Shrewsbury and Ergenbright, the Fourth Amendment
claim, and the vague and sweeping conspiracy claim. See
id. at 1081 (instructing the district court to award fees
even though the district court had denied the defendants’
motions to dismiss, because it warned the plaintiffs “that
their conspiracy claim had barely survived dismissal”). So
the only question to be answered is whether the Sheriff
defendants are a prevailing party, despite the fact that
plaintiffs voluntarily dismissed their complaint before the
court issued its opinion. The court concludes that they are
a prevailing party.
The Sheriff defendants correctly note that the notice
of dismissal here is an “adjudication on the merits,” and
Federal Rule of Civil Procedure 41(a)(1)(B) so provides.
Plaintiffs appear to agree that a Rule 41(a)(1)(B) dismissal
is an adjudication on the merits, but they rely on language
from cases saying that a party has prevailed if there
has been a “material alteration of the legal relationship
of the parties,” and there is a “judicial imprimatur on
the charge.” McAfee v. Boczar, 738 F.3d 81, 88 (4th Cir.
2013) (awarding a fee after a jury verdict). The primary
question, then, is whether a voluntary dismissal that

36a
Appendix B
operates as a dismissal with prejudice, as opposed to
a dismissal ordered by a court, can confer “prevailing
party” status. Plaintiffs acknowledge that a dismissal
with prejudice results in an alteration of the parties’ legal
status, since the plaintiffs can no longer assert the same
claims against the defendants. But they posit that because
there is no “judicial imprimatur,” on that change, there
can be no prevailing party.
The cour t does not believe that the “judicial
imprimatur” language can bear the weight plaintiffs
assign it. The language comes from the Supreme Court’s
decision in Buckhannon, which was a case rejecting the
so-called “catalyst theory.” That is, the Buckhannon
court held that, even though the plaintiff’s lawsuit spurred
action outside the lawsuit by someone else and the other
action then resulted in the relief the plaintiff wanted, the
plaintiff was not a “prevailing party” within the context
of the lawsuit. So, in those circumstances, it made sense
to include a “judicial imprimatur” requirement. But
Buckhannon didn’t squarely address whether a dismissal
with prejudice of the lawsuit would render a defendant a
prevailing party.
Two primary cases cited by the parties address at
some length this specific issue—whether a voluntary
dismissal with prejudice can confer prevailing party
status—and they reach opposite conclusions.9 The first
9. In addition to these two cases, plaintiffs cite to a number of
others on page 8 of their memo. (Dkt. No. 97). None of these cases
are binding, and several have been abrogated by the Supreme
Court’s decision in CRST Van Expedited, Inc. v. EEOC, 136 S.

37a
Appendix B
case is Malibu Media, LLC v. Baiazid, 152 F. Supp. 3d 496
(E.D. Va. 2015). Malibu Media involved a copyright suit
brought by a “purveyor of adult films” against an alleged
infringer. Ultimately, a joint stipulation of dismissal
was filed under Rule 41(a)(1)(A)(ii). While not the same
provision as here, the parties’ stipulation dismissed the
claims with prejudice (and hence with a res judicata
effect), although defendant reserved the right to seek an
award of fees and expenses. The court wrote “so ordered,”
but only as a matter of administrative significance. The
court reasoned that, because that stipulation was effected
“by the parties themselves, without judicial involvement,”
there was no judgment or judicially sanctioned relief, as
referenced in Buckhannon, to confer prevailing party
status. 152 F. Supp. 3d at 500-01.
The contrary result was reached by the court in
the Second Circuit’s decision in Carter v. Incorporated
Village of Ocean Beach, 759 F.3d 159 (2d Cir. 2014). In
Carter, the plaintiffs had voluntarily dismissed some
claims with prejudice. They argued that defendants were
not a prevailing party as to those claims because it was
the plaintiffs’ actions, not the court’s, that resulted in the
dismissal. The Second Circuit rejected that interpretation,
calling it “obvious” that a voluntary dismissal with
prejudice rendered the defendants prevailing parties. Id.
at 166. It noted that the defendants’ victory was “total”
Ct. 1642, 194 L. Ed. 2d 707 (2016). See id. at 1650, 1653 (expressly
abrogating Marquart v. Lodge 837, Int’l Ass’n of Machinists &
Aerospace Workers, 26 F.3d 842 (8th Cir. 1994)). The remainder
are not persuasive for the reasons set forth in the defendant’s reply.
(Reply Supp. Mot. for Fees 11-13, Dkt. No. 98.)

38a
Appendix B
and that plaintiffs were barred by res judicata from
relitigation any of the claims: “Because Plaintiffs cannot
refile, the judgment has materially altered the parties’
legal relationship.” Id. (citing Buckhannon Bd. & Care
Home, Inc., 532 U.S. at 604); see also Janik v. Spin Media,
No. 16-7308, 2017 U.S. Dist. LEXIS 199343, 2017 WL
6021644, at *2 (S.D.N.Y. Dec. 4, 2017) (following Carter and
concluding defendant was prevailing party where plaintiff
voluntarily dismissed case with prejudice).
The court agrees with the Carter court’s interpretation
of Buckhannon. In the factual context of the Buckhannon
case, it made sense to require “judicially sanctioned”
relief. But where—like here and unlike Buckhannon—the
change to the parties’ relationship occurs in the lawsuit
itself and finally and forever disposes of all claims raised
in that litigation, there is a judicial imprimatur. Put
differently, this court interprets Buckhannon as meaning
that a “judicial imprimatur” results where the result is
achieved through the litigation, not outside of it as in
Buckhannon.
Thus, the court concludes that the defendants here
are prevailing parties, despite the fact that the plaintiffs
voluntarily dismissed their claims. See Carter, 759 F.3d
at 166. See also Rasmussen v. Thorne, 2015 U.S. Dist.
LEXIS 103341, 2015 WL 4652781 (D. Colo. Aug. 6, 2015)
(concluding that a plaintiff’s voluntary dismissal with
prejudice based on the application of Rule 41(a)(1)(B) was
sufficient to render the defendant a “prevailing party”
under § 1988). The court will determine the appropriate
amount of the fee award separately below.

39a
Appendix B
3.

Court’s Inherent Authority to Award Fees

The Sheriff defendants also urge the court to impose
fees on a third basis—the court’s inherent authority
to assess fees. (Mot. for Attorneys’ Fees 29-30 (citing
Chambers v. NASCO, Inc., 501 U.S. 32, 38, 45-47, 50, 111
S. Ct. 2123, 115 L. Ed. 2d 27 (1991)). The court does not
believe it is necessary to award fees under its inherent
authority and heeds the warning of the Supreme Court
to exercise “caution in invoking its inherent power,” and
to limit its use of that power generally to circumstances
where no other authority would allow it. The court notes,
however, that in the event that this court’s award of fees
under either of the other provisions were to be erroneous,
the court would exercise its inherent authority to award
the same amount of fees. As already discussed, the court
firmly believes that the plaintiffs and their attorneys acted
in bad faith in conducting certain aspects of this litigation.
Defendants should not be required to bear the costs of
responding to frivolous claims and irrelevant allegations
or to counter improper and unreasonable arguments.
4.

Amount of Fees to Be Awarded

In determining the appropriate amount of fees to be
assessed, whether under Section 1927 or Section 1988, the
court first calculates the lodestar figure by multiplying
the number of reasonable hours expended by a reasonable
billing rate. McAfee v. Boczar, 738 F.3d 81, 88 (4th Cir.
2013), as amended (Jan. 23, 2014). In doing so, the court
may also adjust the figure based on the so-called Johnson
factors, first set forth by the Fifth Circuit in Johnson

40a
Appendix B
v. Georgia Highway Express, Inc., 488 F.2d 714, 717-19
(5th Cir. 1974), and adopted in this circuit by Barber v.
Kimbrell’s Inc., 577 F.2d 216, 226 n.28 (4th Cir. 1978).10Id.
at 89-90 (explaining the interplay of the lodestar amount
and the Johnson factors). Where awarding fees to a
defendant, the standard is not based on the degree of
success. Instead, the court must be careful to award only
fees that were incurred as the proximate cause of either
the frivolous claims or plaintiffs’ counsel misconduct. See
Goodyear Tire & Rubber Co. v. Haeger, 137 S. Ct. 1178,
1186, 197 L. Ed. 2d 585 (2017); Fox v. Vice, 563 U.S. 826,
836, 131 S. Ct. 2205, 180 L. Ed. 2d 45 (2011).
Under Section 1927, and as the Supreme Court has
recently explained, an attorneys’ fee award imposed for
the bad faith of the opposing party or counsel must be
10. The twelve Johnson factors are:
(1) the time and labor expended; (2) the novelty and
difficulty of the questions raised; (3) the skill required
to properly perform the legal services rendered;
(4) the attorney’s opportunity costs in pressing the
instant litigation; (5) the customary fee for like work;
(6) the attorney’s expectations at the outset of the
litigation; (7) the time limitations imposed by the client
or circumstances; (8) the amount in controversy and
the results obtained; (9) the experience, reputation
and ability of the attorney; (10) the undesirability of
the case within the legal community in which the suit
arose; (11) the nature and length of the professional
relationship between attorney and client; and (12)
attorneys’ fees awards in similar cases.
McAfee, 738 F.3d at 88 n.5.

41a
Appendix B
based on a causal relationship. The court can impose fees
only to “redress the wronged party ‘for losses sustained’;
it may not impose an additional amount as punishment
for the sanctioned party’s misbehavior.” Goodyear Tire
& Rubber Co., 137 S. Ct. at 1186 (quoting Mine Workers
v. Bagwell, 512 U.S. 821, 829, 114 S. Ct. 2552, 129 L. Ed.
2d 642 (1994)). Thus, “a sanctioning court must determine
which fees were incurred because of, and solely because
of, the misconduct at issue (however serious, or concurrent
with a lawyer’s work, it might have been).” Id.
Similarly, with regard to a fee award under Section
1988, the court has already determined that defendants
are a prevailing party and that some of the plaintiffs’
claims were frivolous. The Supreme Court has explained
that in a case where there are both frivolous and nonfrivolous claims, a defendant may recover reasonable
attorneys’ fees “incurred because of, but only because
of, a frivolous claim.” Fox, 563 U.S. at 836. That is, a
defendant “can receive only the portion of his fees that
he would not have paid but for the frivolous claim.” Id.
Expenses that the defendant would have incurred even in
the absence of the frivolous claims may not be recovered,
but any incremental harm attributable to the presence
of frivolous claims in the lawsuit is recoverable. Id. In
making this causal determination, this court need not
“achieve auditing perfection.” Id. at 838. Instead, “[t]he
essential goal in shifting fees (to either party) is to do
rough justice . . . .” Id.
Turning to the fees sought here, the Sheriff defendants
argue that the “full amount of defense fees” could be
assessed, but explain that they are not actually seeking

42a
Appendix B
the entirety of their fees and costs. Instead, the Sheriff
defendants are seeking defense fees only for Ms. Johnson,
not paralegal or support staff time, and at the rate of
$185, which has been her hourly rate since 2010 and is
below market rate. They also note that they have pared
down the fees actually billed, excluding all time expended
in communications with clients and others—except for
Nexus’s attorneys—even though that time was necessary
to the defense. They have also excluded “miscellaneous
other fees and expenses” that they contend were
appropriately incurred.
In terms of expenses, they are including only mileage
in connection with court hearings, and the attorney travel
time for those periods were billed at half of the hourly
rate. The total amounts sought are $50,576.33. The
calculation is set forth in the supporting memorandum
and the detailed attorney time record is included in
Johnson’s declaration. (Mem. Supp. Mot. Att’y Fees 33,
Dkt. No. 96; Johnson Decl., Dkt. No. 96-4.) They also note
in their memorandum that they are not seeking fees for
the state court action, which the court could award under
Rule 41(d), and that they are not seeking fees incurred in
the preparation of the fee motion, although they may file
a “supplemental fee application for time necessitated by
any opposition.” (Dkt. No. 96 at 37.)11
11. In their reply, the Sheriff defendants request “the additional
fees and expenses necessitated by Nexus’ opposition to the motion
for fees,” although they do not provide an amount of those fees or
an itemized listing of the fees incurred. If they are going to seek
any such additional fees, they must provide the itemized listing of
the fees within seven days of the entry of the accompanying order.

43a
Appendix B
The court recognizes that the Sheriff defendants have
already substantially cut fees that were reasonable and
necessary to the defense. And the court finds that the
amount of fees sought (with one exception noted below)
was based on reasonable hours at a reasonable billing rate,
with no adjustments warranted under Johnson. Despite
this, the court cannot award the entire amount of fees
sought because the causation standard is not satisfied for
all of those fees. That is, the court cannot say that all of
the fees reasonably incurred were the result of misconduct
by plaintiffs’ counsel, nor can it say that all of the claims
were frivolous or that the entire lawsuit was brought in
bad faith.
Plaintiffs do not challenge the hourly rate, but
challenge—in general terms only, but without alluding to
any specifics—the reasonableness of the hours expended.
The court has reviewed the hours itself and finds only
one instance that it believes should not be included as
“reasonably expended.” Specifically, in the briefing on
plaintiffs’ third motion to amend, there was an opposition,
response, and reply, all of which are permitted under
the local rules of this court. But then, in response to
plaintiffs’ reply, the Sheriff defendants filed a document
titled as a “Notice to Correct Nexus Plaintiffs’ Further
Misrepresentations to the Court.” (Dkt. No. 84.)12
12. Brief ly summarized, the document: (1) responded to
plaintiffs’ allegations of settlement discussions, stating that there
have been none, except a demand letter and a terse response from the
Sheriff defendants; (2) responded to plaintiffs’ arguments that this
is not a strike suit, suggesting that it is a “strike suit” because it is
litigation being used for an improper purpose—to keep investigators

44a
Appendix B
Plaintiffs then moved to strike that document since it
was effectively a sur-reply filed without leave of court
in violation of Local Rule 11, which states that, after the
filing of a responsive brief and reply brief, “[n]o further
briefs (including letter briefs) are to be submitted without
first obtaining leave of court.” W.D. Va. Civ. R. 11(c). (Pls.’
Mot. Strike, Dkt. No. 85.) The Sheriff defendants should
have sought leave to file the document before doing so
and thus are not entitled to fees spent related to drafting
their sur-reply or reviewing the motion to strike. The
time entry that includes work on that filing is lumped
together with other work, but not divided by separate
time entries. Accordingly, the court will not award fees
for the 7.0 hour block Ms. Johnson worked on February
28, 2017, that included that work. The court will remove
$1,295 in claimed fees from the total amount.
Consistent with the causal requirements discussed
above, the court also cannot award the mileage sought by
the Sheriff defendants or Ms. Johnson’s travel time to the
hearings, because, although the hearings themselves were
prolonged by plaintiffs’ frivolous claims and counsel’s bad
faith, the Sheriff defendants would have been required to
attend the hearings even absent the frivolous claims and
plaintiffs’ counsel’s bad faith. So, that amount—$284.08
for mileage plus $860.25 for travel time, or a total of
$1,144.33—is also subtracted from the total, and the court
at arm’s length; (3) alleged that plaintiffs have a nefarious purpose
in bringing this suit and noted that Nexus is now a defendant in a
federal class action lawsuit over its immigration bonding practices;
and (4) attached a copy of the class action complaint. (See Notice,
Dkt. No. 84.)

45a
Appendix B
will not award it. The remaining amount of fees sought
is $48,137.13
Turning to which fees are attributable directly to
improper actions by plaintiffs’ counsel for purposes of
the award under Section 1927, the court has already
highlighted the misconduct in which it believes plaintiffs’
counsel engaged. The court will require the four attorneys
named in note 1 (Hakes, Gorby, Peters, and Burns) to pay
25% of the Sheriff defendants’ fees, as revised by the court,
for a total of $12,034.25. This is an imprecise measure,
and well may be an underestimate of the extent of their
dilatory conduct and the harm it caused defendants. But
the court believes this amount does “rough justice.” Fox,
563 U.S. at 838.
As to Section 1988, the court first notes again that
one of the two major federal claims against the Sheriff
defendants—the Fourth Amendment claim—was frivolous
from the outset.14 Likewise, the state law conspiracy claim
was never sufficiently pleaded and was full of conjecture
13. There are other time entries that could be omitted on
similar grounds under a line-by-line analysis of the claimed fees,
such as time spent reviewing emails regarding scheduling matters
or motions for extension. The court does not undertake that analysis,
however, in light of its determination to award percentages of the
fees sought as an estimate of the caused amounts. See, e.g., Fox,
563 U.S. at 838 (“[T]rial courts may take into account their overall
sense of a suit, and may use estimates in calculating and allocating
an attorney’s time.”).
14. The court cannot say that the First Amendment claim was
entirely frivolous, although it was subject to dismissal and some
aspects of it were frivolous.

46a
Appendix B
and vague allegations. As the court has also noted, the
claims against Ergenbright and Shrewsbury were also
frivolous and, while not brought directly against the
Sheriff defendants, those claims were used to prolong
the proceeding and obtain the opportunity to file the
omnibus motion to amend, which resulted in another
round of briefing and caused defendants’ counsel to have
to review and respond to the newest proposed amended
complaint, which contained many frivolous and irrelevant
allegations. While there might have been other nonfrivolous state law claims in the lawsuit against other
defendants, it is plain that more of the claims against the
Sheriff defendants were frivolous than not. Additionally,
the existence of the frivolous claims both complicated and
extended the litigation. On balance, the court believes that
the additional fees incurred solely because of the presence
of the frivolous claims was approximately 65% of the total
fee award, as revised by the court. The court will require
plaintiffs to pay the Sheriff defendants’ fees in the amount
of sixty-five percent of $48,137, which is $31,289.05.
Thus, a total amount of $31,289.05 is awarded, with
plaintiffs responsible for the entire amount, and the four
attorneys jointly responsible with plaintiffs, each for onequarter of the total amount of $12,034.25 ($3,008.56 each
for Ms. Burns, Ms. Peters, Mr. Gorby, and Ms. Hakes). The
court overlaps the two amounts because the fees incurred
as a result of plaintiffs’ frivolous claims include the same
fees and expenses that the court would award against the
attorneys. Put differently, the thirty-five percent that is
not being awarded is neither the result of frivolous claims
nor the result of counsel’s misconduct.

47a
Appendix B
5.

Opportunity to Dispute on Grounds of Inability
to Pay

The Fourth Circuit has instructed that, before the
court imposes a sanction, it must consider the sanctioned
party’s ability to pay. See Salvin v. Am. Nat’l. Ins. Co.,
281 F. App’x 222, 226 (4th Cir. 2008) (“[i]nability to pay
. . . should be treated as reasonably akin to an affirmative
defense, with the burden upon the parties being sanctioned
to come forward with evidence of their financial status.”)
(citation omitted). Nexus’s statements throughout this
litigation regarding its financial condition, as well as a
letter from Donovan to Sheriff Smith after the case was
dismissed, offering to pay $30,000 to the department “to
reimburse documented legal fees or expenses of litigation
that were not reimbursed by insurance,” (Dkt. No. 96-1),
reflect that Nexus has the ability to pay the fees assessed
against it.
There is no evidence before the court, however,
as to whether any of the attorneys has the ability to
pay the proposed fees. Accordingly, after allowing any
supplementation by the Sheriff defendants concerning
fees incurred to respond to plaintiffs’ opposition to the
motion for fees, see supra note 11, and after the court
issues a final amount to be awarded, it will give counsel the
opportunity to challenge any award on the ground that he
or she cannot afford it. That shall be done not later than
14 days after entry of the court’s final determination of
the amount of fees. The Sheriff defendants will be entitled
to file a response within 7 days of service, and the court
will rule on any such objections thereafter.

48a
Appendix B
III. CONCLUSION
The court does not take the step of imposing these
fees lightly and recognizes that, at least in this district,
an award of fees on similar grounds is not a common
occurrence. But for all the reasons discussed, the court is
convinced that the conduct of plaintiffs and their counsel
suffices to meet the standards for awarding such fees and
that it is appropriate to allow the Sheriff defendants to
recover them. Accordingly, the court will grant the Sheriff
defendants’ motion for an award of fees and will award at
least the amounts set forth above.
If the Sheriff defendants want to seek additional fees
incurred as a result of the opposition to the fee petition,
they should submit an itemization of those additional fees
not later than seven days after entry of the accompanying
order. If they do not intend to seek any additional fees, they
should so advise the court. After the court determines a
final amount of fees, taking into consideration any request
for those additional fees, it will then allow an opportunity
for the attorneys to challenge the final award of fees based
on an inability to pay as discussed above.
An appropriate order will be entered.
Entered: March 23, 2018.
/s/ Elizabeth K. Dillon
Elizabeth K. Dillon
United States District Judge

49a
AppendixOF
C REHEaRING OF
APPENDIX C — DENIaL
THE UNITED STATES COURT OF APPEALS FOR
THE FOURTH CIRCUIT, FILED MaRCH 12, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-1445
(5:16-cv-00035-EKD-JCH)
NEXUS SERVICES, INC.;
MICHAEL DONOVAN; RICHARD MOORE,
Plaintiffs-Appellants,
AMY C.M. BURNS; MARY DONNE PETERS;
MICHAEL J. GORBY; ANDRE ARIS HAKES,
Appellants,
v.
DONALD LEE MORAN, in his Individual
capacity and in his Official Capacity,
as a Deputy Sheriff of Augusta County,
Virginia; DONALD L. SMITH, in his
Individual capacity and in his Official
capacity as a Sheriff of Augusta
County, Virginia; MICHAEL ROANE, in his
Individual capacity and in his Official
capacity as a Deputy Sheriff of Augusta
County, Virginia,
Defendants-Appellees,

50a
Appendix C
and
DAVID L. BOURNE, in his Individual
capacity; WANDA JEAN SHREWSBURY, in
her Individual capacity and in her
Official Capacity as Commissioner
of the Revenue of Augusta County,
Virginia; GENE R. ERGENBRIGHT, in his
Individual capacity and in his Official
Capacity as a Business Tax Auditor for
Augusta County, Virginia; JOHN DOES 1-20
Defendants.
ORDER
The court denies the petition for rehearing and
rehearing en banc. No judge requested a poll under Fed.
R. App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Chief Judge
Gregory, Judge Thacker, and Senior Judge Shedd.
For the Court
/s/ Patricia S. Connor, Clerk

